CTj

NO/:-

ro?(0' (Hi S'

2 S' v ‘as

IN THE
SUPREME COURT OF THE UNITED STATES
n

BRUCE SIMMONS,

m

: 1

J

n
\-i ;

-ri

Is/: I.: si \:-u U
Petitioner,

v.

UNITED STATES OF AMERICA,

FILED
APR 1 0 2021
OFFICE OF THE CLERK
SUPREME COURT | IS

Respondent.

On Petition for Writ of Certiorari to the United States Court
of Appeals for the Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

BRUCE SIMMONS
283 S.W. 8th Street
Dania Beach, Florida, 33004, Apt. 4
Pro se Counsel

I

QUESTIONS FOR REVIEW
1. WHETHER THE PRINCIPLES OF DUE PROCESS
ARE OFFENDED BY THE LOWER COURTS’
APPLICATION OF AN INCORRECT LEGAL
STANDARD IN ASSESSING THE PETITIONER’S
ACTUAL INNOCENCE CLAIM—AS ENUNCIATED
BY MCOUIGGIN V. PERKINS. 133 S. CT. 1924 (2013);
MURRAYV. CARRIER. 477 U.S. 478 (1986), SCHLUP V.
DELO, 513 U.S. 298 (1995); AND BOUSLEY V. UNITED
STATES, 523 U.S. 614 (1998)—WHERE THE
DECISION CONFLICTS WITH FEDERAL LAWS ON
FUNDAMENTAL CONSTITUTIONAL ISSUES AND
FEDERAL LAW?

2. WHETHER UNDER THE DUE PROCESS
CLAUSE, A MISCARRIAGE OF JUSTICE OCCURS
WHEN THE PETITIONER IS CONVICTED FOR A
NON-EXISTENT OFFENSE OR AN OFFENSE NOT
KNOWN TO THE LAW BUT THE COURT FAILS TO
ADDRESS THE CLAIM?

3. WHETHER, UNDER THE DUE PROCESS
CLAUSE, A MISCARRIAGE OF JUSTICE OCCURS
AFTER THE DISTRICT COURT RULES THAT THE
PETTIONER’S ACTUAL INNOCENCE CLAIM HAD
NEVER BEEN ADDRESSED ON THE MERITS, BUT
THEN DENIES THE PETITION AS AN ATTEMPT TO
RE-LITIGATE CONVICTIONS AND/OR AS AN
UNAUTHORIZE ATTEMPT TO USE THE WRIT OF
ERROR CORAM NOBIS AS A VEfflCLE, WHICH
EXPRESSLY CONFLICTS WITH DECISIONS OF
THIS COURT AND ITS OWN PRECEDENTS IN
UNITED STATES V. MORGAN. 346 U.S. 502 (1954)
AND UNITED STATES V. MILLS. 221 F. 3d 1201 (11th
CIR. 2000)?
i

CERTIFICATE OF INTERESTED PERSONS
Petitioner, Bruce Simmons, certifies that the following list of persons have an
interest in the outcome of this appeal, and that all, save for the Eleventh Circuit Court
of Appeals, are from the Southern District of Florida.
1. The United States Court of Appeals for Eleventh Circuit.
2. The Honorable Ursula Ungaro (U.S. Dist. Court Judge).
3. The Honorable William J. Zloch (U.S. Dist. Court Judge and Trial Judge).
4. The Honorable Cecilia M. Altonaga (U.S. Dist. Court Judge).
5. The Honorable Patrick A. White (Magistrate Judge).
6. The Honorable Lisette Reid (Magistrate Judge)
7. United States Attorney, Ariana F. Orshan.
8. Mr. Bruce Simmons (Petitioner) Pro se.

n

TABLE OF CONTENTS
QUESTIONS FOR REVIEW

1

INTERESTED PARTIES

11

TABLE OF CONTENTS

in

TABLE OF AUTHORITIES

1V-V111

PETITION

1-2

OPINION BELOW

2

STATEMET OF JURISDICTION

2

STATUTORY AND OTHER PROVISION

2-3

STATEMENT OF THE CASE

2-7

REASONS FOR GRANTING THE WRIT

8

ARGUMENT ISSUE ONE

9-24

ARGUMENT ISSUE TWO

24-30

ARGUMENT ISSUE THREE

30-40

CONCLUSION

40

CERTIFICATE OF COMPLIANCE

41

CERTIFICATE OF SERVICE

41

INDEX TO APPENDIX

42

ill

TABLE OF AUTHORITIES
Page No.
Aron v. United States. 291 F. 3d 708, 715 (11th Cir. 2002)

39

Batanic v. I.N.S.. 12 F. 3d 662, 667 (7th Cir. 1993

21

Bonner v. City of Prichard, 661 F. 2d 1206 (11th Cir. 1981)
Bousley v. United States, 523 U.S. 614 (1998)

11,25
i, 14, 20, 22

Broadwater v. United States. 292 F. 3d 1302-03

9

Cargill v, Turpin. 120 F. 3d 1366 (11th Cir. 1997)

29

Carter v. Stanton. 405 U.S. 669 (1972)

11

Cooper v. General Motors Corp., 651 F. 2d 249 (5th Cir. 1981)

10

Danley v. Allen. 540 F. 3d 1298 (11th Cir. 2008)

11, 12

De Cardenas v. Reno. 278 F. Supp. 2d 284, 294 (D. Conn. 2003)

21

Dretke v. Haley. 541 U.S. 386 (2004)

14, 23

Edwards v. I.N.S.. 393 F. 3d 299 (2d Cir. 2004)

21

Erco Ind. Ltd, v. Seaboard Coastline RR Co., 644 F. 2d 424 (5th Cir. 1981)

10

Farbwerke Hoeschst A.G. v. M/V “DonNicky. 589 F. 2d 795 (5th Cir. 1979) ... 10
Gebardi v. United States, 287 U.S. 112 (1932)

8, 26, 29

Glasser v. United States. 315 U.S. 60 (1942)

13

Glock v. Singletary. 36 F. 3d 1014 (11th Cir. 1994)

24

IV

CONTINUATION OF AUTHORITIES:

Page No.

Granite Rock Co. v. Int’l Bhd. Of Teamsters. 561 U.S. 287, 306 (2010)

12

Hanson v. Aetna Life & Casualty. 625 F. 2d 573, 575 (5th Cir. 1980)

10

Herrera v. Collins, 506 U.S. 390, 404-405 (1993)

14

Huckeby v. Frozen Food Express. 555 F. 2d 542 (5th Cir. 1977)

9

In re Ford Motor Co.. 345 F. 3d 1315 (11th Cir. 2003).............

9

In re Lei. 22 I. & N. Dec. 113, 132 (BIA 1998)

21

In re Winship. 397 U.S. 358 (1970)

13

Jackson v. Virginia. 443 U.S. 307 (1979)

12

Kaufman v. United States. 394 U.S. 217 (1969)

24

Lafler v. Cooper. 566 U.S. 156, 132 S. Ct. 1376 (2012)

22

Lowery v. United States. 956 F. 2d 227, 230 (11th Cir. 1992)

32

McOuiggin v. Perkins. 133 S. CT. 1924 (2013)

i, 20, 23

Moody v. United States. 874 F. 2d 1575, 1576-77 (11th Cir. 1989)

32,38

Montgomery v. Otis Elevator Co.. 472 F. 2d 243 (5th Cir. 1973)..

10

Mullaney v. Wilbur. 421 U.S. 684, 44 L. Ed. 2d 508 (1975)

39

Murray v. Carrier. 477 U.S. 478 (1986)

i, 13, 19, 22

Rener v. United States. 475 F. 2d 125, 127, (5th Cir. 1973)

34

Sanders v. United States. 373 U.S. 1, 83 S. Ct. 1081 (1963)

40

v

CONTINUATION OF AUTHORITIES:
Schlup v. Delo. 513 U.S. 298 (1995)

Page No.
i, 14, 19, 20, 22

Schriro v. Landrigan, 550 U.S. 465, 474 (2007)

39

Sears v. United States. 343 F.2d 139 (Former 5th Cir. 1965)........................

26

Serra Chevrolet Inc, v. Gen. Motors Corp., 446 F. 3d 1137 (11th Cir. 2006)

9

Simmons v. United States. Case No. 19-14385-DD (11th Cir. 2019)...........

2, 15

Simmons v. United States, 121 S. Ct. 1247 (2001)

5

United States v. Cooper. 203 F. 3d 1279 (11th Cir. 2000).........

13

United States v. Cowart. 595 F. 2d 1023 (Former 5th Cir. 1979)

27

United States v. Frazier. 605 F.3d 1271, 1279 (11th Cir. 2010) .

26

U.S. v. Gower. 447 F. 2d 187 (5th Cir. 1971)..................... ......

25

United States v. Hogan, 986 F. 2d 1364 (11th Cir. 1993) ..........

29

United States, v. Hutchinson, 75 F. 3d 626 (11th Cir. 1996).....

29

United States v. Lively, 803 F. 2d 1124 (11th Cir. 1986)..........

26

U.S. v. Martin. 747 F. 2d 1404 (11th Cir. 1984)

8, 25, 27, 29

United States v. Martino, 648 F.2d 367, 405 (Former 5th Cir. 1981)

26

United States v. Maver. 235 U.S. 55 (1914)

32

United States v. Mills, 221 F. 3d 1201 (11th Cir. 2000)
United States v. Morgan. 346 U.S. 502 (1954)
vi

i, 8
i, 8,31,32,38

CONTINUATION OF AUTHORITIES:

Page No.

United States v. Morrison, 449 U.S. 361, 364 (1981)

22

Unites States v. Peters, 310 F. 3d 709 (11th Cir. 2002)................. .

31

United States v. Schwartz, 666 F.2d 461, 463 (11th Cir. 1982).....

26

United States v. Simmons. 99-12589-JJ (11th Cir. 2000)...............

5, 28, 29

United States v. Simmons, 237 F.3d 634 (11th Cir. 2000).............

5

United States v. Stitzer, 785 F. 2d 1506, 1518 n. 7 (11th Cir. 1986)

25

United States v. Trevino. 556 F. 2d 1265 (5th Cir. 1977)...............

25

United States v. Ward. 197 F. 3d 1076 (11th Cir. 1999)................

13

Wade v. Mavo, 334 U.S. 672 (1948)

40

Vll

OTHER STATUTES AND AUTHORITIES
Const. Amend. 5

2, 8, 13, 24, 30

Const. Amend. 6

3, 14, 15,22

Const. Amend. 14

3, 8, 30

SUP. CT. R. 13.1 & PART III

2

SUP. CT. R. 33(g)(v)

41

18U.S.C. §2

4, 25

21 U.S.C. § 841(b)(1)(C)

4

28 U.S.C. § 1254(1)

2

28 U.S.C. § 1651(a)

31

28 U.S.C. § 2255

5, passim

Vlll

NO.:

IN THE
SUPREME COURT OF THE UNITED STATES

BRUCE SIMMONS,

Petitioner,
v.

UNITED STATES OF AMERICA,

Respondent.

On Petition for Writ of Certiorari to the United States Court
of Appeals for the Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

Bruce Simmons respectfully petitions the Supreme Court of the United States
for a Writ of Certiorari to review the judgment of the United States Court of Appeals
1

for the Eleventh Circuit, rendered and entered in on May 29, 2020, in Simmons v.
United States, Case No. 19-14385-DD (App. A-l) which affirmed the judgment of
the United States District Court for the Southern District of Florida. (App. A-2)
OPINION BELOW
A copy of the decision of the United States Court of Appeals for the Eleventh
Circuit’s Order denying the Petition is attached as App. A-l; and the denial of
Rehearing and Rehearing En Banc is attached as App. A-3.
STATEMENT OF JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1) and PART
III of the Rule of the Supreme Court of the United States. This petition is timely filed
pursuant to SUP. CT. R. 13.1.

STATUTORY AND OTHER PROVISIONS INVOLVED
Petitioner intends to rely upon the following constitutional provisions,
treaties, statutes, rules, ordinances and regulations:
U.S. Const, amend. V:
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the militia, when in actual
service in time of war or public danger; nor shall any
person be subject for the same offense to be twice put in

2

jeopardy of life or limb, nor shall be compelled in any
criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without the due
process of law; nor shall private property be taken for
public use without just compensation.
U.S. Const, amend. VI:
In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury of
the State and district wherein the crime shall have been
committed, which district shall have been previously
ascertained by law, and to be informed of the nature and
cause of the accusation; to be confronted with the witness
against him; to have compulsory process for obtaining
witnesses in his favor, and to have the assistance of
counsel for his defense.
U.S. Const, amend. XIV:
Section 1. ... No State shall make or enforce any law
which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State ... deny
to any person within its jurisdiction the equal protection of
the laws.

3

STATEMENT OF THE CASE
Procedural History

STATEMENT OF THE CASE AND RELEVANT FACTS
As a preliminary statement, Petitioner would place this Honorable Court on
Notice that any references to the Trial Record/Transcript (TR) denotes the
“Supplemental Appendix (Vol. 3) for the United States fGovernment1 Record on
Appeal in the Eleventh Circuit. That is, the transcripts of the trial, referenced by
Petitioner, bears the “same page numbers” in the “Government’s Supplemental
Appendix” filed in this appeal with the Eleventh Circuit Court of Appeals which
can verify the truth of Petitioner’s statements proving his facts and innocence. As
such, whenever “TR” is referenced, it reflects the Govt.’s “Supplemental
Appendix” from Eleventh Circuit, as well as references made by Petitioner.
1.

On December 22, 1998, a federal grand jury returned a two-count indictment

against Petitioner, Mr. Simmons, charging him with “knowingly and intentionally
distributing] a Schedule II controlled substance containing a detectable amount of
cocaine [powder cocaine]; in violation of Titles 21, U.S.C., § 841(a)(1) and 18
U.S.C. § 2, aiding and abetting.” (App. A-41 (S.D. FL., No. 98-cr-6232—CR-DE 3)
2.

A jury trial began on April 12, 1999, and on April 13, 1999, the jury returned

a guilty verdict on each of the two counts charged fid, at D.E. 40).
4

3.

On June 25, 1999, the district court sentenced Petitioner to 240 months’

imprisonment, as to each count, with a $5,000 fine, to run concurrently with each
other followed by three (3) years of supervised release. tCR-DE 71, 73)
4.

Petitioner filed a pro se Writ of Error Coram Nobis petition, which was denied

on June 17, 1999, and an appeal was affirmed on May 26, 2000 (United States v.
Simmons. 99-12589-JJ (11th Cir, 200011: (App. A-7).
5.

Petitioner, via appointed counsel, appealed his convictions for the April 13

1999 convictions which were Per Curiam Affirmed in an unpublished decision
United States v. Simmons, 237 F.3d 634 (11th Cir. 2000).
6.

On December 18, 2000, Petitioner’s Motion for Rehearing and Rehearing En

Banc was denied (245 F.3d 797 (11th Cir. 2000)), and on March 5, 2001, this Court
denied Petitioner’s Petition for Writ of Certiorari. See Simmons v. United States, 121
S.Ct. 1247 (2001).
7.

On March 30, 2001, Petitioner filed his first § 2255 Motion to Vacate

convictions and sentences (D.E. 1, 2, SDFL Case No. 01-cv-6504), to which the
Government filed its Response and argued, for many years to follow, that Mr.
Simmons “was granted permission to file a Supplemental Brief in his direct appeal
of his convictions and had raised the same issues in the Supplemental Brief as was
5

raised in the § 2255 motion (that is, the Government argued that the claims “were
procedurally barred as having already been rejected on the merits on direct
appeaF) (App. A-9).
8.

The Magistrate Judge agreed with the Government’s position and

recommended that Petitioner’s § 2255 motion be dismissed as “procedurally
barred.” (D.E. 25, No. 01-cv-6504) (below shown in App. A-5 at 1)
9.

The

District

Court Judge

adopted the

Magistrate’s

Report

and

Recommendation and dismissed the initial § 2255 motion, without ever addressing
the merits, stating that it, the court, “agreed that the Court of Appeals granted Mr.
Simmons permission to file a pro se Supplemental Brief to raise the same issues
raised in the § 2255 motion, and the issues [were] procedurally barred.” (App. A-5)
(Final Order of August 22, 2002).
10.

Petitioner was denied a COA by both the district court and the Court of

Appeals (D.E. 34. No. 01-cv-6504T
11.

Petitioner continued his efforts to obtain judicial review of his claims,

attempting to prove his innocence from 1999-2016 and beyond, to no avail, faced
with the same, “procedural bar” arguments from the Government and Courts. (See
Case No. 16-61256-CIV-ZLOCH) (outlining Petitioner’s filings over the years).
6

12.

On June 10, 2019, Petitioner filed an Error Coram Nobis petition raising an

actual innocence claim, and on September 25, 2019, the Magistrate Judge issued a
Report and Recommendation (“MJRR”) for dismissal on the basis that the “actual
innocence” claim had been ruled upon and rejected [on the merits] on direct appeal.
(App. A-6) (Case No. 19-cv-61443. DE13 at 2).
13.

Rejecting the MJRR, supra, the district court held that Petitioner’s claim had

not, in fact, been ruled upon on the merits as determined by the MJRR and the
previous [district] courts’ decisions before it. Specifically, the district court held
that: “In sum, the instant claim has never been addressed on the merits and Petitioner
has sought relief for this specific claim at least four times.” (App. A-2 at 4)
14.

Petitioner appealed to the Eleventh Circuit, which was affirmed. (App. A-l)

15.

Petitioner filed a timely Motion for Rehearing and Rehearing En Banc to the

Court of Appeals, and on February 16, 2021, the Court denied the Rehearing and
Rehearing En Banc. (App. A-3)
16.

On February 24, 2021, the Court of Appeals issued its Mandate. (App. A-8)

17.

This Petition follows and is timely.

7

REASONS FOR GRANTING THE WRIT
1.

This case present questions of exceptional and potentially recurring national

importance deserving of this Court’s attention. Certiorari should be granted to
determine and/or clarify whether the courts’ decisions are a denial of Due Process
and/or Equal Protection, and to prevent future reoccurrences where the court applied
an incorrect legal standard in assessing the actual innocence claim from Petitioner’s
§ 2255 motion which had been declared, but now corrected, procedurally barred.
2.

Secondly, this Court should grant certiorari because the district court’s

decision, and Court of Appeals’ affirmance, thereof, offends Due Process and
expressly conflicts with decisions of this Court, in Gebardi v. United States, 287
U.S. 112 (1932), and its own precedents in United States v. Martin, 747 F. 2d 1404
(11th Cir. 1984) where Petitioner has been convicted for “non-indictable offenses”
and/or “offenses not known to the law.”
3.

Thirdly, certiorari should be granted because the district court’s denial of

Petitioner’s reliance on the Writ of Error Coram Nobis, and the Court of Appeals’
affirmance, thereof, violated the Due Process Clause where the district court ruled—
contrary to this Court’s longstanding decision in United States v. Morgan, 346 U.S.
502 (1954), and its own binding precedent under United States v. Mills. 221 F. 3d
1201 (11th Cir. 2000)—that the writ was unavailable to someone like Petitioner.
8

ARGUMENT ISSUES ONE
THE DISTRICT COURT APPLIED THE INCORRECT
LEGAL STANDARD IN ASSESSING PETITIONER’S
CLAIM OF ACTUAL INNOCENCE BASED ON THE
COURT’S FINDINGS OF FACT AND CONCLUSIONS
1. APPLICABLE LAW:
Although some of the cases referred to, in support of the arguments below,
involved “summary judgments''’ orders, and the instant case involved an alleged
‘‘‘'merits determination,” that distinction is one without a difference in that the
rationale therein applies equally to “any decision” on appellate review so as not to
deprive the appellate court, or petitioner, of a proper determination on the merits.
With that in mind, this Court has vacated and remanded cases in which the
district court’s order, as in the instant case, fail to assert its reason(s) for its decision.
Additionally, in a number of cases, the Fifth and Eleventh Circuits have urged the
district courts to “state the reason for its decision.” See Huckebv v. Frozen Food
Express, 555 F. 2d 542, 545 (5th Cir. 1977) (Order did not reveal basis for district
court’s decision; court concluded that the case was dismissed for want of
jurisdiction; “a concise statement by the district court of the grounds for its decision
is desirable.”); In re Ford Motor Co., 345 F. 3d 1315 (11th Cir. 2003) (district court
“provided no substantive explanation” for its decision); Serra Chevrolet. Inc, v.
General Motors Coro., 446 F. 3d 1137, 1151 (11th Cir. 2006) (same); Broadwater v.
9

United States. 292 F. 3d 1302-03 (11th Cir. 2002) (same); Erco Industries, Ltd, v.
Seaboard Coastline Railroad Co644 F. 2d 424 (5th Cir. 1981) (recognizing that
Rule 52(a) requirements of findings and conclusions are not applicable but reiterates
that “the parties are entitled to know the reasons upon which summary judgment
was based in order to facilitate appellate review”); Farbwerke Hoeschst A.G. v. M/V
“Don Nicky. ” 589 F. 2d 795, 798 (5th Cir. 1979) (“If there was some rationalization
or explanation which would have eliminated the apparent conflict in the affidavits
here, an outline of the court’s underlying reasoning could have prevented the
necessity for reversal.”); Cooper v. General Motors Corp., 651 F. 2d 249, 250 n. 1
(5th Cir. 1981) (“We note once again that it is difficult to fathom unspoken reasons,
and that district would render better service to the litigants and facilitate the review
of their actions if they would at least dictate into the record the reasons for their
rendition of a summary judgment.”); Hanson v. Aetna Life & Casualty, 625 F. 2d
573, 575 (5th Cir. 1980) (court noted that prior admonitions callingfor statements of
reasons had been precatory in character but that nevertheless “we have in practice
insisted that district courts record—however informally—their reasons for entering
judgment, at least where their underlying holdings would otherwise be ambiguous
or inascertainable. The court found that was the situation and vacated and
remanded.”) Montsomery v. Otis Elevator Co.. 472 F. 2d 243 (5th Cir. 1973) (“court
10

had no way of knowing whether trial judge misapprehended the state of the facts”).
Decisions of the Fifth Circuit, rendered prior to October 1, 1981, are binding
precedent in the Eleventh Circuit. See Bonner v. City of Prichard, 661 F. 2d 1206
(11th Cir. 1981). More importantly, this Court, in Carter v. Stanton, 405 U.S. 669,
672, 92 S. Ct. 1232, 1234, 31 L. Ed. 2d 569 (1972), vacated and remanded where
the district court’s order was “opaque and unilluminating as to either the relevant
facts or the law.
Because the district court’s order, in this case, simply outlined the procedural
history of prior decisions surrounding Petitioner’s actual innocence claim, but then
concluded that “[none of those courts’ prior decisions] addressed the merits of
Petitioner’s actual innocence claim,” (App, A-2 at 4, f 31. the district court’s
statement—that “the Petition is denied because it fails on the merits”—is the type
of “one sentence orders” that has been held to be insufficient to sustain a court’s
denial. That is, the same Court of Appeals, in this case, has held that:
“[T]he district court’s one sentence order perfunctorily
stated that the district court had considered the motion and
was “of the opinion defendant’s motions are due to be
denied.” The orders are devoid of any facts and any legal
analysis.” (italic emphasis added)
Quoting Danlev v. Allen, 540 F. 3d 1298 (11th Cir. 2008) (district court denied
motion without any explanation, and on appeal the court vacated and remanded with
11

instructions for district court “to consider the case in full and enter reasoned order
which discuss the facts alleged in the ... complaint and detail the legal analysis
used by the district court to reach its conclusions regarding the [complaint.f').
Danlev. 480 F. 3d at 1092. See also, Granite Rock Co. v. Int 7 Bhd. Of Teamsters,
561 U.S. 287, 306 (2010), where this Court explained, as relevant here, that:
“Respondent did not brief both arguments because they
genuinely could not brief both arguments. As a result,
there is zero circuit court authority in opposition calling
Petitioner’s [argument] into question. This Court could
grant this petition on that basis alone.” (emphasis added)
Petitioner would argue, respectfully, that like the district courts before it, the district
court, in this proceeding, likewise failed to address the merits of the actual
innocence claim, when faced with this record evidence, below in Section 2, because
“the court genuinely could not address the merits” without, also, conceding that
Petitioner has served nearly twenty (20) years of his life in a federal prison not only
for, as shown below, a “non-existent offense,” but also for an alleged offense for
which the Government’s attorney and its sole witness has manifested Petitioner is
completely innocent of having committed. This Court should grant review here.
When evaluating the sufficiency of the evidence, in the district court, the
proper standard of review is whether a rationale trier of fact could have found the
defendant guilty beyond a reasonable doubt. Jackson v. Virginia. 443 U.S. 307, 99
12

S. Ct. 2781, 61 L. Ed. 2d 560 (1979); United States v. Ward. 197 F. 3d 1076 (11th
Cir. 1999) (same). A reviewing court will not re-weigh evidence or resolve conflicts
in testimony; instead, evidence is reviewed in the light most favorable to the verdict,
with deference to the jury’s assessment of the weight and credibility of the evidence.
Glasser v. United States, 315 U.S. 60 (1942) (must view the evidence in the light
most favorable to the government); United States v. Cooper. 203 F. 3d 1279 (11th
Cir. 2000) (same). None of that was conducted in the district court in this proceeding.
Under In re Winship, 397 U.S. 358 (1970), the Due Process Clause of the Fifth
Amendment protects the accused against conviction except upon proof beyond a
reasonable doubt of everyfact necessary to constitute the crime charged. This proof,
the Court held, “is required by the Due Process Clause in criminal trials, [and] is
among the essentials of due process and fair treatment.” (Id.) This Court stated that
“[t]he reasonable doubt standard plays a vital role in the American scheme of
criminal procedure. It is a prime instrument for reducing the risks of convictions
resting on factual error.” (Id.) In Murray v. Carrier, All U.S. 478 (1986), this Court
held, in relevant part, that:
“In appropriate cases the principles of comity and finality
must yield to the imperative of correcting a fundamentally
unjust incarceration .... [W]here a constitutional violation
has probably resulted in the conviction of one who is
actually innocent, a federal [] court may grant the writ
even in the absence of a showing of cause for the
procedural default.”
13

No guilty evidence, whatsoever, was presented at Petitioner’s trial. This Court, in
Bouslev v. United States, 523 U.S. 614 (1998), citing Schlup v. Delo, 513 U.S. 298,
327-28 (1995), held that in order “to establish actual innocence, the petitioner must
demonstrate that in light of all the evidence, it is more likely than not that no
reasonable juror would have convicted him;” and in Dretke v. Haley, 541 U.S. 386,
158 L. Ed. 2d 659 (2004) this Court explained that, “not all claims of actual
innocence will involve threshold constitutional issues.” (Id., 158 L. Ed. 2d at 669)
Unlike this Court’s observation in Herrera v. Collins, 506 U.S. 390, 404-405
(1993), Petitioner’s claim does not constitute a “freestanding” constitutional claim
of actual innocence for which this Court has not, yet, decided; but rather, Petitioner,
in his first timely 2255 motion asserted his claim as “ineffective assistance of trial
and appellate counsel” under the Sixth Amendment—for failing to challenge or
adequately challenge the sufficiency of the evidence (App. A-6 at 7, f 5) which, until
recently, had previously been deemed procedurally barred on a “mistaken belief1
of the district courts below (App. A-2 at 4, |f 3) but now corrected. (App. A-2)
Petitioner would suggest that the proper “standard” for assessing his actual
innocence claim, under the current facts, would or could be governed by one of
several standards, but certainly not the “new reliable evidence'''' standard applied by
the district court and affirmed by the Court of Appeals in this case. Here, the district
14

court should first have, sua sponte, invoked the “nunc pro tunc” doctrine and
assessed the claim as though it were hearing it for the first time in a timely section
2255 motion under the Sixth Amendment; or, the district court was required to apply
the standard of “Plenary Review,” as shown below, based solely and expressly on
the ruling by this district court—that the claim, for almost twenty (20) years had
never been, and wrongfully so, addressed on the merits.
2. ACTUAL INNOCENCE CLAIM
TRIAL TESTIMONY OF FBI AGENT:
Applying the above laws to the indisputable facts, infra, of this case, no
reasonable juror would have convicted the Petitioner of the crimes of “distribution
of cocaine’’’ as charged in the Indictment. (App. A-4) In this case, the government
called one witness in an effort to prove its case against Petitioner, Special Agent
(FBI) Adrienne Sullivan, before the Government “rested its case.” (TR-163, L. 1213) (copy of trial record is on file in this case (11th Cir. at 19-14385-DD)
(Supplemental Appendix of the United States. Vol. 3. at 163. L. 12-13).
In its opening arguments to the jury, in an effort to prove the “distribution of
cocaine’’’ charges against Petitioner, the Government argued that:
“You are going to learn that on January 2nd of 1998 and again
on January 23rd of 1998 a man sold a significant quantity of
cocaine to someone he thought was a drug dealer who in fact
turned out to be an Undercover FBI Agent accompanied by
an informant. The evidence will prove that that man was this
15

defendant Bruce Simmons (TR-83, L. 17-22).... You will learn
about how on two occasions, as I said, this defendant sold
cocaine, the first time, January 2nd, 1998, he sold about four
ounces or a quarter pound of cocaine to an informant and an
Undercover Agent, and on the second occasion, January 23rd,
1998, the defendant sold approximately a quarter of a
kilogram or about nine ounces of cocaine to the Undercover
Agent and informant
(TR-84. L. 6-12J. The government declined to call the alleged informant to testify at
Petitioner’s trial, despite the fact the informant was, then, incarcerated on unrelated
drug charges. (Govt.’s Sunn. Ann.. Vol. 3 & TR-164: 247J Therefore, the
government based its entire case upon the testimony of Special Agent Sullivan
(FBI), its sole witness called against Mr. Simmons, the Petitioner.
Keeping in mind that the Government vehemently argued that [Petitioner] Mr.
Simmons sold cocaine to the FBI Agent and informant. Conversely, however,
during cross-examination, the sole witness called by the Government, Special Agent
Sullivan (FBI), never testified that she, or anyone else, ever saw Petitioner with, sell,
possess, or distribute any cocaine or other narcotic substance to anyone. In fact,
Agent Sullivan testified that (1) “[she] never discussed purchase price [for drugs]
with Mr. Simmons.” (TR-95); Agent Sullivan testified that (2) “[she] did not know
if there was contraband in the confidential informant’s underwear before he made
contact with Mr. Simmons because she did not search [his] groin area.” (TR-116;
16

118); Agent Sullivan testified that (3) “to my knowledge no male Agent searched
the informant prior to informant making contact with Mr. Simmons.” (TR-120); the
Agent, Sullivan, testified that (4) “Mr. Simmons’ finger prints were not taken off of
the plastic bags containing the cocaine” of which Mr. Simmons testified to never
touching. (TR-158-159); Agent Sullivan testified that (5) “[she] was not involved
with any surveillance whatsoever and that she stayed at a 7-11 store while the
informant, Melvin Brown, and Mr. Simmons departed the area and she just sat there
and waited until the trio returned.” (TR-153); Agent Sullivan testified that she (6)
“did not hear any conversation during the absence of the [informant], driver, and Mr.
Simmons, and [did] not know if the [informant’s] recorder was turned on.” (TR154); Agent Sullivan testified that “(7) on January 23, 1998, once the [informant]
returned to the 7-11 store and entered [her] vehicle, [that she] followed the vehicle
containing Mr. Simmons and the driver of the vehicle to a residence, [and that she]
stayed on the outside [and] the [informant] went into the house and he later came out
and entered her vehicle; [and that she] had no contact with Mr. Simmons at that time
and never spoke with Mr. Simmons.” (TR-155, 156); Agent Sullivan testified that
(8) “the [informant] stayed in the residence maybe 10 to 15 minutes before exiting
[and] reentered her vehicle and subsequently pulled from his pocket a plastic bag
containing a white substance which was later identified as cocaine.” (TR-113, 114);
17

Agent Sullivan testified that (9) during [her] entire investigation of [the Petitioner]
Mr. Simmons [that she] “never physically saw Mr. Simmons give narcotics to the
Informant.” (TR at 155-157] Bearing in mind that the informant did not testify in
Petitioner’s trial (TR-164; 247). and the fact that after FBI Agent Sullivan testified,
and calling no other witness, the government “rested its case against Mr. Simmons,”
(TR-163.L. 12-13). Based on this record evidence, no reasonable juror would have
found the Petitioner guilty of distribution of cocaine to the Agent and/or informant.

3. INCORRECT LEGAL STANDARD
While it may have appeared, atface value, that the district court was going to,
or did, apply the standard under the teachings of Bousley—that “a petitioner must
demonstrate that in light of all the evidence, it is more likely than not that no
reasonable juror would have convicted him,” (Ann. A-2 at 5. F 4]—being the court
referred to that particular language, but the court went on, immediately thereafter,
and stated that “[a] substantial claim that constitutional error has caused the
conviction of an innocent person is extremely rare

To be credible, such a claim

requires [this] petitioner [Mr. Simmons] to support his allegations of constitutional
error with new reliable evidence ... that was not presented at trial ... Petitioner [Mr.
Simmons] has not... alleged any new evidence, let alone new reliable evidence, of
18

his actual innocence. His claim is one of legal innocence, not factual innocence.”
(App. A-2 at 6, |f 1-2) (italic emphasis in the original). The district court does not
provide any analysis of Petitioner’s allegations of innocence against the record to
show issues in dispute, and it cannot because there is no evidence to dispute
Petitioner’s claim of factual innocence in this record whatsoever; and no one can
muster up any evidence to “dispute” Petitioner’s innocence claim.
Here, the court clearly asserted that “Petitioner,” in the case sub judice, “was
required to allege a constitutional error with new reliable evidence that was not
presented at trial.” (Id.) The district court continued, and rather than provide any
analysis whatsoever of its reasoning or explaining “how” the court reached its socalled “merits determination,” that Petitioner was making a “legal” innocence rather
than a “factuaF innocence argument, the court simply concluded by stating that “the
Petition is denied because it fails on the merits.” (App. A-2 at f 1-2)
Bearing in mind the above facts, the legal standard for deciding Petitioner’s
actual innocence claim is not governed by the “cause and prejudice standard” as in
Murray v. Carrier. Nor does the legal standard requiring the petitioner to “support
his allegations of constitutional error with new reliable evidence not presented at
trial” govern this claim, as in Schluv v. Delo, in which a petitioner must also make a
19

showing of a “threshold constitutional violation,” as applied by the district court
in this case. However, Schlup v. Delo would appear to govern this case, to the
extent, when “a petition presents evidence of innocence so strong that a court cannot
have confidence in the outcome of the trial unless the court is also satisfied that the
trial was free of non-harmless constitutional error,” {Schlup, 513 U.S. at 316.)
Petitioner would suggest, however, that the legal standard to govern this case
was outlined, also, in Bouslev v. United States. to the extent a petitioner must
demonstrate that “in light of all the evidence, it is more likely than not that no
reasonable juror would have convicted him.” Bousley, 523 U.S. at 623. Petitioner
would argue, respectfully, that the district court erred, however, in requiring him to
“support his allegations of “constitutional error” with new reliable evidence.” This
is so because of the district court’s ruling that “the instant claim lactual innocencel
hafdl never been addressed on the merits and Petitioner haldl sought relief for this
specific claim at least four times.” (App. A-2 at 4, f 31 Under this ruling, which was
not challenged by the Government despite its argument on appeal to the contrary,
the district court was required to hear the actual innocence claim anew and also
under the doctrine of “ineffective assistance of counsel,” just as this Court stated in
McQuiggin v. Perkins, supra, a procedurally barred claim, yet he made the credible
20

showing of actual innocence, and this Court stated that:
“[A] credible showing of actual innocence may allow a
prisoner to pursue his constitutional claims (here,
ineffective assistance of counsel) on the merits
notwithstanding the existence of a procedural bar to
relief.”
However, in order to do so, Petitioner would suggest that the district court was
required to apply the “nunc pro tunc” doctrine in order to return Petitioner to the
position he would have been absent the “judicial error” after the court ruled that
“Petitioner’s actual innocence claim had never been addressed on the merits [when
it was timely and properly submitted in his first 2255 motion to vacate that was
wrongfully declared procedurally barred].” (Ann. A-2 at 7. F 2]
This doctrine, nunc pro tunc, even in immigration cases, has been applied as
far back as 50 years “[to] achieve equitable results serving the interests of the agency
and the individual alike.” See In re Lei. 22 I. & N. Dec. 113, 132 (BIA 1998)
Moreover, federal courts also “rel[y] on the doctrine, in order to return aliens to the
position in which they would have been, but for a significant error, in their
immigration proceedings.” Edwards v. I.N.S., 393 F. 3d 299, 308-09 (2d Cir. 2004);
see also Botanic v. I.N.S.. 12 F. 3d 662, 667 (7th Cir. 1993); and De Cardenas v.
Reno, 278 F. Supp. 2d 284,294 (D. Conn. 2003) (administrative oversights and also
procedural defects deprived [petitioner] of an important opportunity to make her
21

case for section 212(c) relief). This Court has held that the:
“Sixth Amendment remedies should be “tailored to the
injury suffered from the constitutional violation and
should not unnecessarily infringe on interests.” United
States v. Morrison, 449 U.S. 361, 364 (1981). Thus, a
remedy must “neutralize the taint” of a constitutional
violation, id., at 365.” (bold emphasis added)
Quoting Lafler v. Cooper. 566 U.S. 156, 132 S. Ct. 1376, 1388 (2012). This ruling,
above, should have been, and is being requested herein to be, applied in the context
of the case sub judice where justice required the district court to place Petitioner in
the same position he would have occupied, absent the judicial error, at the outset.
Under that position, the district court should have allowed Petitioner’s actual
innocence claim, in fact Petitioner’s entire 2255 motion—which incorporated the
claim—to be heard anew without application of the “new reliable evidence"
standard, or other hurdles applicable to defendants who, themselves, caused a
procedural default or other procedural obstacle preventing review of their claim(s).
Unlike in the instant case, where the lower courts created the impediment that
prevented Petitioner from having his claim(s) addressed on the merits when they
should have been, (App. A-21 the actual innocence cases, including Murray v.
Carrier, Schluv v. Delo. and Bouslev, each involved a case in which the defendant,
or the attorney, created the impediment that formed the basis upon which they found
22

themselves, as it relates to obtaining a subsequent review of their actual innocence
claim. Yet, those cases were permitted to proceed through the “fundamental
miscarriage of justice” doctrine based upon a credible showing of actual innocence
and/or a constitutional violation.
Conversely, however, Petitioner, here, was the victim of an erroneous and/or
mistaken procedural bar theory, based on a judicial error, and not of Petitioner’s
doings or of counsel’s, which has now been corrected. Yet, the Government and the
lower courts, by their arguments seek to preclude Petitioner from ever having his
actual innocence claim from truly being addressed on the merits despite an extensive
credible showing, as shown above in Section #2 pages # 16-19, which constitutes as
much of a factual innocence claim as can ever be presented.
Petitioner, like Perkins and Dretke, initially raised his actual innocence claim
in his first timely filed post-conviction 2255 motion to vacate as “ineffective
assistance of counsel” for failing to challenge the insufficiency of the evidence to
convict. (App. A-2 at 3, ]f 3) From that point, and the next twenty (20) years, the
Government argued that Petitioner’s actual innocence claim had been “addressed on
the merits and rejected.” (App. A-9) (Govt.’s Resp. to first 2255 motion arguing
“procedural bar theory”); (App. A-6) (Report of Magistrate showing the history of
filings making same “procedural bar” argument). Because the district court’s final
23

order clarified that Petitioner’s actual innocence claim had “never been addressed
on the merits” when it should have been (in 2001) (App. A-2), the proper remedy
was for the district court to hear this case anew and under the “PLENARY” standard
of review. The standard of review under a § 2255 motion is plenary. Kaufman v.
United States, 394 U.S. 217, 22 L. Ed. 2d 227, 89 S. Ct. 1072 (1969); dock v.
Singletary. 36 F. 3d 1014 (11th Cir. 1994) (same).
Because the district court applied the “new reliable evidence” standard to
Petitioner’s Writ of Error Coram Nobis—after ruling that the “actual innocence
claim had been sought at least four specific times and had never been addressed on
the merits”—the court erred in failing to applying the nunc pro tunc doctrine,
Plenary or De novo Review, and by failing to address the actual innocence claim
under the Sixth Amendment ineffective assistance of counsel doctrine. The Court of
Appeals erred, also, in affirming the district court’s decision in violation of the Due
Process Clause requiring this Court’s attention and reversal under “stare decisis.”
ARGUMENT ISSUE TWO
PETITIONER WAS CONVICTED FOR A NON­
EXISTENT OFFENSE UNDER FEDERAL LAW IN
VIOLATION OF THE DUE PROCESS CLAUSE,
WELL ESTABLISHED FEDERAL LAW, IN
VIOLATION THIS COURT’S DECISION AND OF ITS
OWN CIRCUIT PRECEDENT

24

4.

NON-EXISTENT OFFENSE NOT KNOWN TO THE LAW

AIDING AND ABETTING:
Under “Title 18 U.S.C. § 2, aiding and abetting is not a separate crime, but is
inherently embodied in all indictments for substantive offenses.” U.S. v. Stitzer, 785
F. 2d 1506, 1518 n. 7 (11th Cir. 1986) (citations omitted). The law makes clear that
“one cannot aid and abet himself.” U.S. v. Martin. 747 F. 2d 1404 (11th Cir. 1984).
Title 18 U.S.C. § 2, which makes he who aids and abets the commission of an offense
punishable as a principal, is an alternative charge in every count, whether explicit or
implicit, and the rule is well established, both in the [Eleventh] Circuit and others,
that one who has been indicted as a principal may be convicted on evidence showing
that he merely aided and abetted the commission of the offense. U.S. v, Gower, 447
F. 2d 187 (5th Cir. 1971); see Bonner v. City of Prichard, 661 F. 2d 1206 (11 Cir.
1981) (holding that “all cases from the Former Fifth Circuit Unit B, and cases prior
to September 30, 1981 are binding precedent in the Eleventh Circuit”).
However, a defendant can only be liable on an aiding and abetting theory if the
government proves that the substantive offense, which the defendant allegedly aided
and abetted, was actually committed by someone else. The proof required for
criminal liability on an aiding and abetting theory requires no less than the proof
required for the principal offense itself. United States v. Trevino. 556 F. 2d 1265
25

5th Cir. 1977); United States v. Frazier, 605 F.3d 1271, 1279 (11th Cir. 2010) (“to
prove guilt under a theory of aiding and abetting, the government must show that
someone other than the defendant committed a substantive offense”); United States
v. Schwartz. 666 F.2d 461, 463 (11th Cir. 1982) (same); United States v. Samuels,
308 F. 3d 662 (6th Cir. 2002) (“one cannot aid and abet with a government
informer”); and United States v. Martino. 648 F.2d 367, 405 (Former 5th Cir. 1981),
cert, denied, 456 U.S. 949, 102 S. Ct. 2020, 72 L. Ed. 2d 474 (1982) (same); Sears
v. United States. 343 F.2d 139 (Former 5th Cir. 1965) (same); United States v. Lively,
803 F. 2d 1124 (11th Cir. 1986) (“it is legally impossible to conspire [or aid and abet]
with a government agent or informer”).
In the instant case, no person, other than Petitioner, was named or charged in
the indictment as being involved in or with the alleged drug offenses charged in this
case. (App. A-41 (Indictment!. Petitioner was charged, also, under the aiding and
abetting statute, 18 U.S.C. § 2. (Id.). Moreover, the trial judge gave the jury an
instruction on “aiding and abetting,” stating that “[Petitioner] could be convicted for
the conduct of others, just as though he committed the crimes himself, under aiding
and abetting.” (Govt.’s Sunn. Appendix. Vol. 3. at 2601 (TR. at 2601 Compare
Gebardi v. United States, supra, (showing that “aiding and abetting without proof of
other is non-indictable offense under federal law”).
26

In Martin, supra, the Eleventh Circuit, explaining the basis for which to
constitute an “offense not known to the law,” went on to state that:
“The difficulties in this case with counts one and two
arises from the presence of several factors: the affirmative
inclusion of aiding and abetting in these two counts,
though it was not required to be alleged, the failure to
charge any person other than Martin of a principal
offense, and the giving of a jury instruction on aiding and
abetting other persons when under the evidence no person
other than Martin committed a principal offense.. .Taking
count one as an example, the only principal offense
charged is attempt to possess with intent to distribute. The
only person charged with committing that offense is
Martin. The indictment can be read, therefore, as charging
an offense not known to the law, i.e., Martin’s aiding and
abetting himself...We cannot exclude the possibility that
the jury convicted Martin of offenses alleged improperly,
not cured by jury instructions, and not supported by the
evidence. What we have said with respect to count one
applies equally to count two. The convictions on both
counts must be reversed.'1'’ (italic emphasis added)
Petitioner’s facts are virtually indistinguishable from Martin’s, other than the
fact that there was no evidence Petitioner committed or attempted to commit the
substantive offenses, while in Martin, there was testimony from two non-indicted
co-defendants testifying that Martin did, in fact, attempt to commit the crimes. (Id.)
See also, United States v. Cowart, 595 F. 2d 1023,1030, n. 10 (Former 5th Cir. 1979)
(stating “there can be no aiding and abetting without a principal”). Importantly, the
Government, itself, in the instant case, has previously argued to the Eleventh Circuit
27

Court of Appeals that it, the Government, could not prove at trial that Petitioner
“[(committed the crimes of conviction] and, therefore, had to rely on an aiding and
abetting theory in order to convict [Petitioner] as a principal.'''’ Specifically, the
Government argued that:
“Simmons was properly convicted for distributing
cocaine, a crime he participated in with another individual.
Therefore, the government’s reliance at trial on an aiding
and abetting theory in order to convict Simmons as a
principal was proper given the government’s theory that
Simmons may or may not have completed all of the
predicate acts himself (all emphasis added]
(App. A-7 at 5): see also, United States v. Simmons, No. 99-12589 (11th Cir. 1999)
(Unpublished). Clearly the Government has unequivocally conceded that there was
no evidence to prove that Petitioner committed the predicate acts, or elements, of
the distribution offenses.”
As in Martin, supra, Martin was the only person charged with committing the
crimes, and, likewise, Petitioner was the only person charged with committing the
crimes. (App. A-4) As in Martin, aiding and abetting was included in both counts of
the indictment, though it was not required to be, as likewise, Petitioner’s two counts
included aiding and abetting. (App. A-4) As in Martin, the court instructed the jury
on the law of aiding and abetting “other persons,” when under the evidence no one
else committed or attempted to commit the crimes, as also in Petitioner’s case, there
28

was no evidence that Petitioner committed the substantive crimes (Government
concedes that there was no evidence Petitioner committed the substantive counts
himself) (See App. A-7 at 5) and/or (United States v. Simmons, No. 99-12589 (11th
Cir. 1999) (Unpublished)).
Following the Eleventh Circuit’s precedent, Martin, supra, Petitioner’s
indictment can be read, therefore, as charging an offense not known to the law, i.e.,
Simmons ’ aiding and abetting himself As the Eleventh Circuit held in Martin, supra,
the same must apply equally to Petitioner, Mr. Simmons, that:
“We cannot exclude the possibility that the jury convicted
Martin [or Simmons] of offenses alleged improperly, not
cured by jury instructions, and not supported by the
evidence. What we have said with respect to count one
applies equally to count two. The convictions on both
counts must be reversed.”
Here, Petitioner, like Martin, supra, has been convicted for “an offense not known to
the law,” aiding and abetting himself. (See also Gebardi, supra) Clearly, as a matter
of law, Petitioner has demonstrated, based upon Gebardi and Eleventh Circuit
precedents, that his convictions are “non-existent offenses under federal law and/or
unindictable offenses,” which must be reversed as a matter of well-established law.
Gebardi. supra, Martin, supra; see also Cargill v. Turpin, 120 F. 3d 1366 (11th Cir.
1997); United States, v. Hutchinson, 75 F. 3d 626 (11th Cir. 1996); and United States
v. Hogan, 986 F. 2d 1364 (11th Cir. 1993) holding that:
29

“One panel of the Eleventh Circuit cannot revisit another
panel’s decision. That is, each succeeding panel is bound
by the holding of the first panel to address\. an issue of law
unless and until that holding is overruled en banc or by the
[United States] Supreme Court.”
Therefore, because Martin and Petitioner’s cases are virtually indistinguishable,
except that Petitioner’s case is more onerous in that there was no evidence that
Petitioner, unlike Martin, committed or attempted to commit the substantive
offenses, Due Process, clearly established federal law, and the Equal Protection
Clause demands that Petitioner’s convictions—under the “non-existent offense” or
“offense not known to the law” doctrine, inter alia—be reversed and vacated. This
Court, under “stare decisis,” should intervene and direct the Court of Appeals to
Reverse and Vacate the convictions and dismiss the indictment. It is so prayed.
ARGUMENT ISSUE THREE
THE DISTRICT COURT’S DECISION, AND COURT
OF APPEALS’ AFFIRMANCE THEREOF, DENYING
PETITIONER’S USAGE OF THE WRIT OF ERROR
CORAM NOBIS, AS A VEHICLE, WAS IN ERROR
The Government, for almost twenty (20) years, argued that the Petitioner’s
actual innocence claim wasprocedurally barred, and the district court agreed. (App.
A-9; A-6; and A-5, respectively) Because of the district court’s current ruling—that
the actual innocence claim had never been addressed on the merits [due to a judicial
Error]—the question, here, is whether Petitioner was entitled to, or was correct in
30

relying upon the Writ of Error Coram Nobis, as a vehicle, to have his claim addressed
on the merits after his imprisonment and supervised release was completed. The
facts and laws demand the question be answered in the affirmative.
5. CORAM NOBIS WAS THE PROPER REMEDY
APPLICABLE LAW
Coram nobis jurisdiction arises pursuant to United States v. Morgan. 346 U.S.
502, 74 S. Ct. 247, 98 L. Ed. 248 (1954). Federal courts have authority to issue a
writ of error coram nobis under the All-Writs Act, 28 U.S.C. § 1651 (a). As explained
by this Court, in Morgan, the writ of error coram nobis is a remedy “available to
vacate a conviction when the petitioner has served his or her sentence and is no
longer in custody because the results of the conviction may persist.” Subsequent
convictions may carry heavier penalties, [and] civil rights may be affected.” Id., at
512-13, 74 S. Ct. 247 (quoting U.S. v. Peter. 310 F. 3d 709, 712 (11th Cir. 2002)).
The Court went on to state that “the law recognizes that there must be a vehicle
to correct errors of the most fundamental character; that is, such as rendered the
proceeding itself irregular and invalid. In essence, the writ of error coram nobis acts
as an assurance that deserved relief will not be denied as a result of the technical
limitations of other post-conviction remedies.” (citation omitted) (quoting Peter, 310
F. 3d at 712). Coram nobis jurisdiction exists only to correct [a] manifest injustice.
31

See Rener v. United States

475 F. 2d 125, 127, (5th Cir. 1973).” Lowery v. U.S.,

956 F. 2d 227, 230 (11th Cir. 1992).
Moreover, the Morgan majority, after examining those errors for which the
writ was issued at common law, wrote: “Continuation of litigation after final
judgment and exhaustion or waiver of any statutory right of review should be
allowed through this extraordinary remedy only under circumstances compelling
such action to achieve justice.” 346 U.S. at 507-11, 74 S. Ct. at 250-53. Such
compelling circumstances exist only when the error involves a matter of fact of the
most fundamental character which has not been put in issue or passed upon and
which renders the proceeding itself irregular and invalid.” (citing U.S. v. Mayer, 235
U.S. 55, 69, 35 S. Ct. 19, 59 L. Ed. 129 (1914)), quoting Moody v. United States,
874 F. 2d 1575, 1576-77 (11th Cir. 1989).
A manifest injustice occurs when a defendant, as here, has been wrongfully
deprived of access to the courts in an effort to prove his innocence for almost twenty
(20) years; where the Government has conceded, albeit inadvertently, that the
' Petitioner was convicted for a crime [not charged]; and where the Petitioner has
been convicted for a “non-existent offense’’’ under federal law.

32

6.

ANALYSIS
Contrary to the lower courts’ decisions, that Petitioner was not entitled to use

a coram nobis petition to have his actual innocence claim addressed on the merits,
or otherwise, that Petitioner was [improperly] attempting to re-litigate his
convictions through the writ of error coram nobis, the district court’s ruling, itself
and the basis thereof, dispels that notion. In support, Petitioner offers the following.
DIRECT APPEAL
In his direct appeal of his convictions, Petitioner, via appointed counsel, raised
one issue for appellate review: “Whether the district court properly limited
Simmons’s [Petitioner’s] cross examination of a government witness concerning a
non-testifying confidential informant’s criminal history?” (App. A-2 at 2, $ I)
Petitioner, without permission from the Court, submitted a pro se supplemental brief,
which was not addressed on the merits by the Court. (Id., at n. 1)
CORAM NOBIS PETITIONS
Petitioner, while still incarcerated, filed three (3) coram nobis petitions
seeking to have his claims, including actual innocence and conviction for non­
existent offenses, addressed on the merits, to no avail. The petitions were dismissed,
without addressing the merits, because “coram nobis unavailable when the petitioner
is still in custody.” (App. A-2 at 3, $ II)
33

HABEAS PETITIONS
Petitioner, while incarcerated, filed at least seven (7) habeas petitions alone,
seeking relief on the basis of, inter alia, actual innocence. The first was the § 2255
motion alleging “ineffective assistance of counsel” for failing to raise, among other
things, “the sufficiency of the evidence to convict, and the improper jury instruction
[on aiding and abetting others],” which were dismissed without addressing the
merits allegedly on the basis that the “issues or similar issues had been rejected in
[Petitioner’s] direct appeal from the pro se supplemental brief filed by Petitioner.
(App. A-2 at 3, $ III; at 4) (showing all motions and petitions filed by Petitioner was
denied on “procedural [bar] grounds,” but never addressed on the merits).
It is important to note, however, that this claim—that similar issues were
rejected in the direct appeal on Petitioner’s “pro se Supplemental Brief’ has been
the driving force, the backbone, and sole basis of the Government’s and the district
courts’ reason(s) for denying and/or dismissing Petitioner’s pleadings, including his
first 2255 motion. Conversely, the Eleventh Circuit Court of Appeals, itself, was
compelled to ’‘’‘correct and/or to clarify” the record to dispel that notion, although
the lower courts continued, to this day, to disavow and/or to outright and flatly
disregard the Court of Appeals’ final order. Otherwise, this petition would not have
ever been necessary. That is to say, the Court of Appeals, in response to a “Judicial
34

Complaint” filed by Petitioner, stated, in relevant part, that:
“The record shows that in Appeal No. 99-12064 the U.S.
Court of Appeals for the Eleventh Circuit (“the Court”)
affirmed Mr. Simmons’ criminal convictions in an opinion
issued on October 27, 2000. Mr. Simmons filed a § 2255
habeas corpus petition in Case No. 01-civ-6504-Zloch that
was dismissed by the district court on August 22, 2002 ...
In Appeal No. 06-15755, Mr. Simmons appealed the
district court’s decision ... In brief, Mr. Simmons
complains that in its opinion in Case No. 06-15755, the
Court stated that Mr. Simmons had asked for permission
to file a supplemental brief in his direct criminal appeal,
and that the Court [stated that it] had granted his request.
Mr. Simmons [however] points out that by [our] Order
dated January 21, 2000, th[is] Court had in fact denied his
motion for leave to file a supplemental brief ... Mr.
Simmons alleges that the erroneous statement in the
Court’s opinion constitutes fraud ...[but] Mr. Simmons
provides no evidence ... that Judge Dubina or any other
panel member knew that the statement in the Court’s
opinion with respect to the filing of a supplemental brief
was incorrect [at the time the statement was made].”
(App. A-10) While the complaint was dismissed, the Eleventh Circuit unequivocally
conceded that “it had not, in fact, ruled on the merits of any claim Petitioner raised
in his pro se Supplemental Brief on direct appeal. (Id.)
Suffice it to say, however, that in spite of the Court’s Order, clarifying that it,
the Court, “had denied Petitioner’s [Mr. Simmons’] request to file a Supplemental
Brief in his Direct Appeal,” every district court and each government attorney,
thereafter, continued to use the ‘‘‘'procedural bar theory” to blocking Petitioner from
35

having his claim(s), and first § 2255 motion issues, from being addressed on the
merits. (See App. A-6 at 3-5) (showing pleadings filed, over 20 years, by Petitioner
and dismissed or denied without addressing the merits based expressly upon the so
called “procedural bar” related to the pro se Supplemental Brief that the Court
explicitly disavowed—addressing its merits—in the Judicial Complaint). (App. A10) (Judicial Complaint clarifying that “Supplemental Brief, on direct appeal, was
denied) Therefore, impossible for any claim to have been addresses on direct appeal.
ATTEMPTING TO RE-LITIGATE CONVICTIONS
The district court denied the coram nobis petition alleging that the Petitioner
is attempting to re-litigate his convictions. (App. A-2 at 6, If 3) (stating “Coram nobis
is inapplicable if the petitioner merely wishes to re-litigate criminal convictions ...
That is exactly what Petitioner is attempting to do in this proceeding ... Thus, even
taking Petitioner’s factual allegations as true, he is not entitled to coram nobis relief
because he is attempting to re-litigate his conviction.”) Clearly the district court is
“straddling the fence” and her conclusions are conflicting in and of themselves. This
is so, however, because, on the one hand, the district court has concluded that “the
Court has never ruled on the merits of Petitioner’s actual innocence claim,” (App.
A-2 at 4, f 3; at 7, If 2); and, on the other hand, the district court concluded_“Petitioner
is attempting to re-litigate his [actual innocence claim] criminal convictions.” (See
36

App. A-2 at 6. |f 3)
The actual innocence claim, which was raised in Petitioner’s first timely §
2255 motion to vacate under ineffective assistance of counsel for failing to challenge
the sufficiency of the evidence, (App. A-2 at 3. F 3) has already been determined to
have been erroneously declared procedurally barred (App. A-10; App. A-2 at 4, f 3)
by the district court’s Order (actual innocence “claim had never been addressed on
the merits.”) (App. A-2 at 7, Jf 2) There, because the district court concedes that the
actual innocence claim had never been addressed on the merits, the claim, actual
innocence—which undoubtedly proves the convictions were in error—simply
cannot be an attempt to re-litigate something, a claim, that has never been litigated
in the first instance.” Nor can these matters be divorced from each other.
Therefore, the district court’s ruling, that the actual innocence claim had never
been addressed on the merits, in and of itself, denounces any notion that Petitioner
was “attempting to re-litigate” his criminal conviction. In other words, the district
court’s conclusion—that the “Petitioner was attempting to re-litigate his criminal
convictions” [by proving his actual innocence]—would send a misguided message
that “proof of actual innocence cannot result into a reversal of the convictions.” This,
with all due respect, makes no sense whatsoever. Especially when the sole purpose
of proving one’s innocence is, itself, to overturn and/or reverse the conviction(s) of
37

one who is actually innocent of the crimes of convictions. For these reasons, the
district court’s “re-litigate criminal conviction” theory should be rejected, and the
decision denying relief on the basis of the same should, likewise, be rejected.
Coram nobis was the proper remedy under the facts of this case. The writ is
“appropriate only when there is and was no other available avenue of relief. Morgan,
98 L. Ed. 248 (1954); Moody v. United States. 874 F. 2d 1575,1578 (11th Cir. 1989).
Petitioner had no remedy, after filing at least seven (7) petitions that were wrongfully
barred from review. (App. A-2 at 3, jf 3) Secondly, the writ may issue “only when
the error involves a matter of fact of the most fundamental character which has not
been put in issue or passed upon and which renders the proceeding itself irregular
and invalid.” Moody, 874 F. 2d at 1576-77. Petitioner’s actual innocence and
ineffectiye assistance of counsel claims were among the claims wrongfully dismissed
as procedurally barred and “never addressed on the merits.” (App. A-2 at 3, f 3; at
4, f 1-3) The district court’s order, as pointed out, displays the facts necessary for
application of the writ in this case. The claim has never been addressed on the merits
in almost twenty (20) years of filings based solely on a mistaken belief in the nature
of a “Judicial Error.” On this basis, Petitioner’s reliance and usage of the writ was,
as a matter of law, correct and proper. The lower courts erred, reversibly, in their
decisions, and this Court should intervene to erase the stigma of injustice attached
38

to the wrongful convictions. Or, alternatively, this Court should Grant, Vacate, and
Remand (GVR) this case to another judge not previously assigned to this case for
further proceedings as determined by this Court including, if deemed applicable, an
Evidentiary Hearing on each and every claim presented in Petitioner’s first timely,
but erroneously dismissed, § 2255 motion in Case No. 01 -civ-6504-Zloch (App, A2 at 3, |f 3). Under Section 2255, unless “the motion and the files and records of the
case conclusively show that the prisoner is entitled to no relief,” the court shall “grant
a prompt hearing thereon, law with respect thereto.” However, if the record refutes
the applicant’s factual allegations or otherwise precludes habeas relief, a district
court is not required to hold an evidentiary hearing.” Schriro v. Landrisan, 550 U.S.
465, 474 (2007); and Aron v. United States. 291 F. 3d 708, 715 (11th Cir. 2002).
It is noteworthy, however, to assert that the record evidence in the case
discloses that “any reasonable fact-finder would, if not outright voting for acquittal,
certainly, in fact, have entertained a reasonable doubt of Petitioner’s guilt,” to say
the least; however, “the constitutional necessity of proof beyond a reasonable doubt
is not confined to those defendants who are morally blameless.” Mullanevv. Wilbur,
421 U.S. 684, 44 L. Ed. 2d 508 (1975) (requirement of proof beyond a reasonable
doubt is not limit[ed] to those facts which, if not proved, would wholly exonerate
the accused).
39

In order to preserve the integrity of this Court’s line of decisions, this Court
should reverse the Court of Appeals’ affirmance of the lower courts’ decisions, here,
denying relief to Petitioner. This Court has held that:
“Conventional notions of finality of litigation have no
place where life or liberty is at stake and infringement of
constitutional rights [are] alleged... loss of liberty and
sometimes loss of life... are far too great to permit the
automatic application of an entire body of technical rules
whose primary relevance lies in the area of civil
litigation.”
Sanders v. United States, 373 U.S. 1, 24, 83 S. Ct. 1081 (1963); see also, Wade v.
Mayo. 334 U.S. 672, 681, 68 S. Ct. 1270, 1275, 92 L. Ed. 1647 (1948). Therefore,
Petitioner prays for this Honorable Court to. vacate and reverse the decisions of the
district court and Eleventh Circuit Court of Appeals, already delayed 20 plus years,
even at this late date and time. Better, as here, that justice be delayed, than not at all.
CONCLUSION
WHEREFORE, based on the foregoing petition, facts and authorities, this
Court should GRANT the Writ of Certiorari to the Court of Appeals for the Eleventh
Circuit or, otherwise, GVR this case with instructions as deemed just and fair and
right as demanded by the Due Process Clause of the United States Constitution.
Respectfully submitted,
Bruce Simmons-iVo se
40

